Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF MEDICAID
  OVERPAYMENTS AT NORTH
  COUNTRY ASSOCIATES, INC.,
  FOR CALENDAR YEARS 2004
       THROUGH 2006




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-01-08-00011
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.


 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Office of A udit Services
                                                                         Region I
                                                                         John F. Kennedy Federal Building
                                                                         Room 2425
                                                                         Boston, MA 02203
                                                                         (617) 565-2684



APR 2 2 2009
Report Number: A-01-08-00011

Ms. Brenda M. Harvey
Commissioner
Maine Department of Health and Human Services
221 State Street
Station Number 11
Augusta, Maine 04333

Dear Ms. Harvey:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector

General (OIG), final report entitled "Review of Medicaid Overpayments at North Country

Associates, Inc., for Calendar Years 2004 Through 2006." We will forward a copy of this report

to the HHS action official noted on the following page for review and any action deemed

necessary.


The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made

available to the public to the extent the information in the report is not subject to exemptions in

the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.


If you have any questions or comments about this report, please do not hesitate to call me, or

contact George Nedder, Audit Manager, at (617) 565-3463 or through e-mail at

George.Nedder@oig.hhs.gov. Please refer to report number A-O 1-08-000 11 in all

cOlTespondence.


                                               Sincerely,




Enclosure
Page 2 - Ms. Brenda M. Harvey


Direct Reply to HHS Action Official:

Jackie Gamer, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601


cc: Anthony Marple
    MaineCare Services Director
                                  EXECUTIVE SUMMARY

BACKGROUND

The Maine Department of Health and Human Services (the State agency) is responsible for
administering MaineCare, the Maine Medicaid program, in compliance with Federal and State
statutes and administrative policies. The State agency reimburses nursing homes based on an
established per diem rate for services provided to Medicaid beneficiaries. Pursuant to Medicaid
requirements, the State agency must use any additional resources that a beneficiary has,
including Social Security payments, to reduce its Medicaid payments to nursing homes. The
State agency determines the amount of the beneficiary’s contribution during the claims eligibility
process and enters this amount into its computer system. The beneficiary’s contribution is
remitted directly to the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return any overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to the Centers for
Medicare & Medicaid Services (CMS) on its next Quarterly Statement of Expenditures for the
Medical Assistance Program (CMS-64).

In January 2005, the State agency implemented a new computer system to process
reimbursement claims submitted by health care providers. Shortly after its release, the new
system experienced serious malfunctions that resulted in incorrect payments to providers,
including nursing homes.

To assist the State agency in determining the amount of incorrect payments to nursing homes, we
are reviewing Medicaid claims at selected nursing homes throughout the State.

North Country Associates, Inc. (North Country), located in Lewiston, Maine, is a Medicare- and
Medicaid-certified facility whose payments were affected by the new computer system. North
Country has 11 facilities in Maine. This report covers payments to the following five facilities:
Maplecrest, Orchard Park, Somerset, Sonogee, and Southridge Rehabilitation and Living
Centers. North Country officials reported that North Country returned $257,279 in Medicaid
overpayments for the period 2004 through 2006.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid overpayments to North
Country during calendar years 2004–2006.

SUMMARY OF FINDING

The State agency made overpayments to North Country on behalf of an average of 26 Medicaid
beneficiaries each month during calendar years 2004–2006. Specifically, the State agency did
not adjust its Medicaid per diem payments to North Country by the amount of beneficiaries’



                                                i
cost-of-care contributions from other resources, such as Social Security and pensions. As a
result, the State agency’s Federal claim was overstated by a total of $487,772 ($314,411 Federal
share).

These errors occurred because the State agency’s new computer system was unable to reduce
payments to nursing homes by beneficiaries’ cost-of-care contributions as appropriate and refund
any collected overpayments to the Federal Government.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $487,772 from North Country and refund the $314,411
       Federal share of these collected overpayments to CMS on its next quarterly CMS-64 and

   •   continue its efforts to ensure that Medicaid payments to nursing homes are identified,
       collected, and refunded.

MAINE DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS

In comments on our draft report, the State agency concurred with our finding and
recommendations.

The State agency’s comments are included in their entirety as Appendix B.




                                               ii
                                                 TABLE OF CONTENTS

                                                                                                                        Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................2
               Objective ..................................................................................................2
               Scope........................................................................................................2
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................3

          UNADJUSTED NURSING HOME PAYMENTS ............................................3

          AMOUNT OWED FEDERAL GOVERNMENT ...............................................4

          CAUSE OF UNADJUSTED OVERPAYMENTS..............................................4

          RECOMMENDATIONS.....................................................................................4

          MAINE DEPARTMENT OF HEALTH AND HUMAN
           SERVICES COMMENTS ................................................................................4

APPENDIXES

          A – MEDICAID OVERPAYMENTS TO NORTH COUNTRY,
               BY CALENDAR YEAR

          B – MAINE DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS




                                                                   iii
                                           INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The Maine
Department of Health and Human Services (the State agency) is responsible for administering
MaineCare, the Maine Medicaid program, in compliance with Federal and State statutes and
administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use any additional resources that a beneficiary has, including Social Security payments, to reduce
its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the claims eligibility process and enters this
amount into its computer system. The beneficiary’s cost-of-care contribution is remitted directly
to the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its next
Quarterly Statement of Expenditures for the Medical Assistance Program (CMS-64).

In January 2005, the State agency implemented a new computer system to process
reimbursement claims submitted by health care providers. Shortly after its release, the new
system experienced serious malfunctions that resulted in incorrect payments to providers,
including nursing homes.

To assist the State agency in determining the amount of incorrect payments to nursing homes, we
are reviewing Medicaid claims at selected nursing homes throughout the State.

North Country Associates, Inc. (North Country), located in Lewiston, Maine, is a Medicare- and
Medicaid certified facility whose payments were affected by the new computer system. North
Country has 11 facilities in Maine. This report covers payments to the following five facilities:
Maplecrest, Orchard Park, Somerset, Sonogee, and Southridge Rehabilitation and Living
Centers. We reviewed Medicaid overpayments to the other six North Country facilities in a prior
report. 1

North Country officials reported that North Country returned $257,279 in Medicaid
overpayments for the period 2004 through 2006.

1
 “Review of Medicaid Overpayments at North Country Associates, Inc., in Maine for Calendar Years 2004–2006”
(A-01-07-00012), issued July 9, 2008.


                                                     1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid overpayments to North
Country during calendar years 2004–2006.

Scope

For the period January 1, 2004, through December 31, 2006, we reviewed Medicaid accounts
that were at risk for having overpayments. We limited our review of internal controls to
obtaining an understanding of North Country’s procedures for reviewing accounts and reporting
overpayments to the Medicaid program.

We performed fieldwork from October 2008 to February 2009 at North Country in Lewiston,
Maine; the State agency in Augusta, Maine; and the CMS Regional Office in Boston,
Massachusetts.

Methodology

To accomplish our objective, we:

   •    reviewed State and Federal regulations pertaining to overpayments,

   •    worked with North Country officials to identify credit balances in North Country’s
        accounting records that were potentially created by cost-of-care overpayments,

   •    reviewed Medicaid remittance advices and patient accounts to determine whether
        overpayments had occurred,

   •    determined the cause of the overpayments, and

   •    coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

The State agency made overpayments to North Country on behalf of an average of 80 Medicaid
beneficiaries each month during calendar years 2004–2006. Specifically, the State agency did
not adjust its Medicaid per diem payments to North Country by the amount of beneficiaries’


                                                 2
cost-of-care contributions from other resources, such as Social Security and pensions. As a
result, the State agency’s Federal claim was overstated by a total of $487,772 ($314,411 Federal
share).

These errors occurred because the State agency’s new computer system was unable to reduce
payments to nursing homes by beneficiaries’ cost-of-care contributions as appropriate and refund
any collected overpayments to the Federal Government.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to CFR 42 § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual's total income for a personal needs allowance and other considerations that the
regulation specifies. Section 4000 of the MaineCare Eligibility Manual identifies Social Security
payments and pensions as part of an individual’s income for calculating cost-of-care
contributions.

Section 1903(d)(2)(C) and (D) of the Act further provides that a State has 60 days from the
discovery of an overpayment for Medicaid services to recover or attempt to recover the
overpayment from the provider before the State must adjust its Federal Medicaid payment.

UNADJUSTED NURSING HOME PAYMENTS

The State agency made overpayments to North Country on behalf of an average of 26 Medicaid
beneficiaries each month during calendar years 2004–2006 (Appendix). Specifically, the State
agency did not adjust its Medicaid payments to North Country by the amount of beneficiaries’
cost-of-care contributions from other resources, such as Social Security and pensions.


                  Example of Medicaid Overpayment for One Beneficiary

 Mr. G was a patient at a North Country facility for the month of July. Based on his other
 resources, the State agency calculated Mr. G’s cost-of-care contribution to be $1,200 a month.
 The State agency determined that the nursing home was entitled to a monthly payment of
 $5,000, consisting of $3,800 from the State agency and the $1,200 contribution from Mr. G.
 However, the nursing home received a total of $6,200 ($5,000 from the State agency and
 $1,200 from Mr. G) because the State agency’s computer system did not adjust the payment
 amount by Mr. G’s cost-of-care contribution. Thus, the nursing home received an
 overpayment of $1,200 ($6,200 minus $5000) for Mr. G’s care for the month of July.


As shown in the Appendix, the average number of beneficiaries with monthly overpayments
increased from 10 in 2004 to 30 in 2006, after the State implemented its new computer system.
The State agency made 925 overpayments for these beneficiaries during our audit period.




                                                3
AMOUNT OWED FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments to
North Country for the period January 1, 2004, through December 31, 2006, was overstated by a
total of $487,772 ($314,411 Federal share).

CAUSE OF UNADJUSTED OVERPAYMENTS

These errors occurred because MaineCare’s new computer system was unable to reduce
payments to nursing homes by beneficiaries’ cost-of-care contributions as appropriate and refund
any collected overpayments to the Federal government. Maine officials attributed these
deficiencies to the numerous patches that the new computer system required over a 2-year period
to correct its initial malfunctions.

The State agency has recently developed a manual system to use for processing the
overpayments that our ongoing audits are identifying until its new computer system is fully
functional.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $487,772 from North Country and refund the $314,411
       Federal share of these collected overpayments to CMS on its next quarterly CMS-64 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

MAINE DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS

In its comments on our draft report, the State agency concurred with our finding and
recommendations and stated that it would return the Federal share of $314,411 on its next
quarterly CMS-64. The State agency also said that it would continue to work proactively with us
to reconcile any additional overpayments that are discovered during our review of nursing home
providers in the State.

The State agency’s comments are included in their entirety in Appendix B.




                                               4
APPENDIXES
                                                                                             APPENDIX A


       MEDICAID OVERPAYMENTS TO NORTH COUNTRY, BY CALENDAR YEAR


              Cost          Average Number of
             Report          Beneficiaries with                Number of                Total
              Year        Overpayments per Month              Overpayments          Overpayments

               2004                    10                            120                    $72,906

               2005                    37                            444                    236,079

               2006                    30                            360                   178,787

            TOTAL                      26                            924 1                 $487,772




1
    Result of adding rounded numbers. The actual number of monthly overpayments was 925.
APPENDIX B
 Page 1 of 2
APPENDIX B
 Page 2 of 2
